Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 HMO CUSTOMER SATISFACTION
          SURVEYS
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES
The OIG’SOffice of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilitiesand are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS
The OIG’SOffice of Investigations (01) conducts criminal, civil, and adrnhistrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, adrnhistrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS
The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. This report was prepared in the New York regional office
under the direction of Alan S. Meyer, Ph.D., Regional Inspector General. Project staff included:


REGION II                                              HEADQUARTERS

Demetra Arapakos, Project Leader                       Jennifer Antico
Nancy Harrison                                         Hugh Hetzer
                                                       Brian Ritchie
                                                       Barbara Tedesco


For additional copies of this report, please contact the New York regional office at (212) 264-
1998.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 HMO CUSTOMER SATISFACTION

          SURVEYS





                            sERVICq
                    #                 “G.
              J+
         *+                              ‘7


        g                                     JUN13  GIBBS BROWN
        u                                     Inspector   General
        2
        %
         %++,
                        <
                                                       MARCH 1995
           2       ‘*daa
                                                      OEI-02-94-O0360
             EXECUTIVE                            SUMMARY




To assess how Medicare health maintenance organizations (HMOS) are conducting
customer satisfaction surveys and how they are utilizing the results of these surveys.

BACKGROUND

In various staff meetings, the Office of Managed Care in the Health Care Financing
Administration (HCFA) asked the Office of Inspector General (OIG) to survey how
Medicare HMOS are measuring customer satisfaction, particularly of Medicare
beneficiaries, and using the resulting data. The HCFA requested this study in order to
better ascertain how active its role should be in surveying Medicare HMO enrollees and
how the surveys HMOS are conducting can be of use to HCFA in its monitoring efforts.

We selected a stratified random sample of 95 HMO risk and cost contracts out of the
universe of 185 such contracts with Medicare beneficiaries enrolled as of February 1,
1995. We sent them a mail questionnaire regarding their customer satisfaction survey
procedures and their use of survey results. We also requested copies of their survey
instruments, which we analyzed for content and format. We received 72 completed
questionnaires and 63 survey instruments.

FINDINGS

Virtually All Risk and Cost HMOS Conduct Customer Satisfaction Surveys

All but one of our respondent HMOS (99 percent) conduct general customer satisfaction
surveys.

However, Most HMOS Do Not Target Their Medicare Members

More than half of the HMOS (55 percent) have never conducted a customer satisfaction
survey of their Medicare members only. Furthermore, almost all of these (97 percent)
also do not include questions specific to Medicare members on their general surveys.
More than one-third of all HMOS (39 percent) do not know the satisfaction rate of their
Medicare members for their last general survey, and most (65 percent) do not know the
Medicare response rate. However, the Medicare specific data which is available shows
that Medicare members have high satisfaction rates.

HMO Customer Satisfaction Survey Instruments and Procedures Lack Uniformity

The satisfaction survey instruments used by HMOS vary widely in their format and
content; in fact, no two are the same. These instruments differ in their
comprehensiveness and in the rating scales and satisfaction questions used. The survey


                                              i
procedures HMOsuse also vary. This lack ofuniformity in HMO surveys renders
comparisons between HMOS difficult, if not impossible, when assessing Medicare
beneficiaries’ satisfaction with their plans.

While in Many Ways Basically Sound, Technical Weaknesses in Many HMO Surveys
May Mask Problems and Inflate Satisfaction With Managed Care Plans

Many HMOS appear to be following sound survey principles regarding sampling and
increasing response rates. Most are also using survey instruments containing clearly
worded and focused questions (98 percent) and covering a broad range of satisfaction
dimensions (71 percent.) However, many HMO survey instruments do contain
weaknesses which may bias, to some degree, survey results. Most significantly, more
than half (58 percent) include no questions about problems with or complaints about health
plan services, and twenty-nine pe’rcent use survey instruments which include an
unbalanced five-point rating scale of three positive, one neutral and only one negative
response category. Most HMOS are also lacking mail follow-up procedures (21 of 32
which use mail surveys) and are not conducting non-respondent analyses (87 percent.)
One-third of HMOS scored adequate on an index of instrument adequacy, and less than
half (44 percent) scored adequate on an index of procedure adequacy.

HMOS Use Their Survey Results as Much for Marketing as for Quality Improvement

Nearly three-fourths of HMOS (74 percent) say they use the results of their customer
satisfaction surveys to market themselves to potential new members. A similar number
(76 percent) report also using their customer satisfaction data to develop quality
improvement or corrective action plans. A majority of HMOS share their survey findings
with physicians (76 percent) and with plan members (67 percent.)

IMPLICATIONS FOR MEDICARE

We believe the usefulness of customer satisfaction surveys as currently conducted by
HMOS is substantially reduced by their lack of uniformity, limited focus on Medicare
beneficiaries and technical weaknesses. Therefore, if HCFA seeks data on the satisfaction
of Medicare beneficiaries with managed care, we believe it can not rely upon industry
surveys as they are now conducted. The HCFA may want to consider alternative
approaches to measuring Medicare client satisfaction with managed care, such as
conducting its own surveys or requiring HMOS to periodically survey their Medicare
members with a standardized instrument and comparable procedures.

The Office of Inspector General is planning further work surveying Medicare beneficiaries
about their experiences with HMOS. We will once again conduct a survey of Medicare
HMO members similar to one already completed. We are also working on a technical
assistance report which will provide HCFA with a more detailed discussion of our
methodology for conducting beneficiary surveys and will identify useful survey techniques
and methods based on our prior experience.



                                            ii
COMMENTS

Wereceived favorable comment.s from HCFAontie            drafi repoti, expressing their
appreciation for the timeliness and significance of our study, In particular, HCFA states
that this report will be a major factor in influencing its decision to develop its own
beneficiary satisfaction survey capability. The actual comments received are included in
Appendix C.




                                            ...
                                            m
                     TABLE                 OF        CONTENTS

                                                                                                        PAGE

EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .1




FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


  �   Virtually All HMOs Conduct General Surveys . . . . . . . . . . . . . . . . . . . . . ..5


  �   Most HMOs Do NotTargetMedicare              Members . . . . . . . . . . . . . . . . . . . ...5


  �   HMO Surveys Lack Uniformity.           . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


  �   Technical Weaknesses May Mask Problems and Inflate Satisfaction . . . . . . . . . . .7


  �   HMOs Use Survey Results as Much for Marketing as for Quality Improvement. . . .9



IMPLICATIONS         FOR MEDICARE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10




APPENDICES

A: Statistical Procedures      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    A-1


B: Indexes of Survey Adequacy .,.            . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-l

                          INTRODUCTION

PURPOSE

To assess how Medicare health maintenance organizations (HMOS) are conducting
customer satisfaction surveys and how they are utilizing the results of these surveys.

BACKGROUND

In various staff meetings, the Office of Managed Care in the Health Care Financing
Administration (HCFA) asked the Office of Inspector General (OIG) to survey how
Medicare HMOS are measuring customer satisfaction and using the resulting data. The
OIG was asked to pay particular attention to what the managed care industry is doing to
measure the satisfaction of its Medicare members. The HCFA requested this study in
order to better ascertain how active its role should be in surveying Medicare HMO
enrollees and how the surveys HMOS are conducting can be of use to HCFA in its
monitoring efforts.

This report follows earlier OIG reports on Medicare managed care. These included one
entitled “Beneficiary Perspectives of Medicare Risk HMOS” which surveyed beneficiaries
about their experiences with HMOS. This report found that while risk HMOS provide
adequate service access for most of their Medicare enrollees, some serious problems
remained with enrollment procedures and service access and disenrollees were more likely
than enrollees to have experienced problems with HMO services. A further report on
“Medicare Risk HMOS: Beneficiary Enrollment and Service Access Problems” looked
more closely at HMO-level data to identify the distribution of these problems and found
that they existed in varying degrees of intensity among HMOS and more frequently with
disenrollees than with enrollees. Another report, entitled “Medicare Risk HMO
Performance Indicators, ” found that HMO disenrollment rates, along with customer
satisfaction surveys, appear to be useful managed care performance indicators.

l%e Industry

Health maintenance organizations are a form of managed care in which a patient selects a
primary care physician from a group of approved plan providers to act as the patient’s
first point of contact within the health care system. This physician must authorize any
specialist, hospital or other type of care the patient receives. According to industry
estimates, approximately 50 million individuals in the United States are enrolled in one of
the 550 HMOS across the country,

An HMO can pay its physicians in different ways. A primary care physician or specialist
can be paid on a cavitation basis, in which he or she is paid one monthly amount per each
patient regardless of how much care that patient receives. Physicians can also be paid on
a fee-for-service basis. Some HMOS use a combination of these different payment
methods.


                                              1
Medicare HMOS

Medicare beneficiaries have the option of receiving their health care from an HMO
approved by HCFA. Once approved, the HMO generally applies for a risk or cost
Medicare contract. In a risk contract, the HMO provides the full Medicare benefit
package andispaid onaprospective percapita basis, inwhich itisrequired to absorb any
financial losses butispemitied   toremin any fimncial savings. Under such a contract,
payment ismadeon aprepaid cavitation basis with no retroactive adjustment. The HCFA
encourages HMOS to apply for risk contracts. In a cost contract, the HMO also provides
the full Medicare benefit package but is paid on a reasonable cost basis. An HMO can
also serve Medicare patients through a health care prepayment plan agreement or as a
demonstration project.

The number of Medicare risk and cost contracts continues to grow. As of February 1,
1995, 157 plans had risk contracts and 30 had cost contracts with HCFA, with a total
enrollment of approximately 2.5 Medicare million beneficiaries. This is an increase from
July of last year, when there were 136 risk HMOS and 27 cost HMOS. In February 1993,
only 87 HMOS had risk contracts to serve Medicare beneficiaries.

While only about seven percent of the Medicare population nationwide is enrolled in
HMOS, the geographical distribution of tlis enrollment varies widely. The distribution of
Medicare HMO enrollees is concentrated in four States: California, New York, Florida,
and Arizona. A few States have no Medicare beneficiaries enrolled in managed care
programs.

Section 42 CFR 417. 107(h) of the regulations require federally qualified HMOS with
Medicare enrollees to implement ongoing quality assurance programs. These programs
must have the following basic components: a quality assurance methodology, a peer
review process, systematic data collection of performance and patient results, and
remedial action procedures.

As part of the systematic data collection requirement listed above, HMOS are required to
share their data collection results with their providers of care and institute any needed
changes based on these results. Data can be collected from any of several different
sources, including member satisfaction surveys. These surveys, however, are not required
by law.

Customer Satisfaction Initiatives

Several efforts have been under way in the managed care industry to develop
methodologies and instruments for measuring and reporting performance ratings, including
customer satisfaction, in managed health care. These initiatives have primarily been
motivated by an interest in the industry and among health care consumers in establishing
standard measures by both individuals and employers can compare and contrast different
health plans. Few of these initiatives, however, are specifically aimed at the Medicare
population.


                                            2
Two industry groups are particularly active in managed care quality and customer
satisfaction issues. The National Committee for Quality Assurance (NCQA) is a voluntary
private accreditation agency active in setting and enforcing HMO quality standards. In
November 1993, it developed the Health Plan Employer Data and Information Set
(HEDIS), which defines performance measures to evaluate, among other things, a plan’s
quality of care, member access to care, and member satisfaction. The NCQA publishes
the results of its accreditation reviews nationwide. Also, the Group Health Association of
America (GHAA), a managed care industry group to which most HMOS belong, has
developed a model consumer satisfaction questionnaire which is available to its members.

METHODOLOGY

In conducting this inspection, we selected a stratified random sample out of the universe
of 185 HMO risk and cost contracts with Medicare beneficiaries enrolled as of February
1, 1995 (nine additional HMO risk and cost contracts were dropped from the universe
because they had no Medicare enrollees at the time the sample was drawn.) These HMO
contracts were stratified into three groups of high, medium and low Medicare enrollment,
based on the number of Medicare beneficiaries in each. The HMOS in the high stratum
have Medicare enrollments of larger than 42,550, while those in the medium and low
strata have between 42,500 and 1000 and less than 1000 Medicare members respectively,
We purposely contacted all of the contracts in the high stratum. See Appendix A for a
more detailed explanation of strata selection.

We selected 95 HMO risk and cost contracts for the fiml sample: all 13 from the first
stratum, 70 from the second stratum, and 12 from the third stratum. Medicare enrollment
in the 13 high stratum contracts accounts for 51 percent of all Medicare enrollment
nationwide in managed care. Forty-seven different HMOS across the country hold these
95 contracts, Eighty-two of the 95 are risk contracts, and the remaining 13 are cost
contracts.

We sent all 95 a mail questionnaire which requested information about their customer
satisfaction survey procedures and their use of survey results. We also requested copies
of the HMOS’ survey instruments. After allowing six weeks for data collection, during
which time we conducted a second mailing to non-respondents, we achieved an overall
response rate of 76 percent for the questionnaires. We also achieved a 66 percent overall
response rate for the survey instruments after making a minimum of two follow-up
telephone calls to HMOS who did not initially send us their instruments. For the mail
questionnaires, we achieved response rates of 100 percent for the high stratum, 77 percent
for the medium stratum, and 42 percent for the low stratum. For the survey instruments,
we achieved response rates of 100, 64 and 42 percent for each of the three strata
respectively. All differences reported between strata are statistically significant at the 95
percent conildence level.

Differing response rates among strata suggest the possibility of non-response bias. While
we did use Chi-square to test for such bias, due to our relatively small sample size and



                                              3

resulting small cell sizes in the two-variable tables, it was not a valid test. Therefore, we
acknowledge the possibility of non-response bias but are not able to quanti@ it.

To assess HMO customer satisfaction survey procedures, we reviewed the returned mail
questionnaires to determine, among other things, their sampling methods, follow-up
procedures, and their means of determining response and satisfaction rates. Our findings
on survey procedures are based on the HMOS’ answers to these questionnaires. See
Appendix A for contldence intervals of fifteen key questions.

To assess HMO survey instruments, we developed a detailed review sheet which we used
to systematically evaluate each instrument for both form and content. This review sheet
included assessments of each instrument’s length, dimensions of satisfaction measured,
scales and format used, clarity of instructions and questions, and user friendliness.

We also constructed two indexes of survey adequacy - one for instruments and the other
for procedures. We used data from the instrument review sheets discussed above to
construct the index of instrument adequacy. This index was based on three key variables:
comprehensiveness of satisfaction dimensions, balanced response categories, and problem
specific questions. The index of procedure adequacy was based on four variables: level of
confidence sought, frequency of follow-up efforts, conducting a non-respondent analysis,
and use of balanced criteria for determining overall satisfaction. For these four variables,
we used indicators from the questionnaires returned by HMOS. In each of the two
indexes, we gave the variables a subscore, which were then combined to give total scores
for instrument adequacy and procedure adequacy respectively. The indexes of survey
adequacy are explained in greater detail in Appendix B.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              4

                                 FINDINGS

VIRTUALLY ALL RISK AND COST HMOS CONDUCT CUSTOMER
SATISFACTION SURVEYS

General Membership S@”sfaction Surveys

All but one of the respondent HMOS (99 percent) conduct general customer satisfaction
surveys. Almost all (95 percent) consider these general surveys to be very or somewhat
useful. A majority of HMOS (60 percent) conduct their surveys at least once a year,
while thirteen percent survey their members twice a year. Most of the remaining 28
percent conduct satisfaction surveys on an ongoing basis.

Nearly three-fourths of HMOS occasionally (24 percent) or always      (49 percent) use a
professional research agency to conduct their customer satisfaction   surveys, with a total of
37 different research fms cited by the responding HMOS. All of        the HMOS with high
Medicare enrollment hire professional research firms, as compared      to 70 percent of
HMOS with medium and low Medicare enrollments.

Other ~pes of Surveys

A majority of HMOS are also conducting other types of surveys. These include surveys
of disenrollees (92 percent), on the functional or health status of their members (58
percent), and of the working aged (53 percent.) Fifty-nine percent of HMOS also survey
the physicians who work for them about their satisfaction.

HOWEVER, MOST         WOS     DO NOT TARGET THEIR MEDICARE                   MEMBERS

Medicare Sti”sfaction Surveys

While HMOS conduct satisfaction surveys of their general memberships, they pay less
specific attention to their Medicare members. More than half of the HMOS (54 percent)
have never conducted a customer satisfaction survey of their Medicare members only; in
fact, eight percent of these survey only their commercial, non-Medicare, members on
satisfaction. Seven of the HMOS who have not yet conducted a Medicare only survey did
volunteer, however, that they are planning to do so within the next year. Almost all of
the HMOS (97 percent) which do not conduct Medicare only surveys also do not include
questions specific to Medicare members on their general surveys; the few who do ask only
a limited number of Medicare questions.

While most HMOS have the potential to identify Medicare members in their general
surveys by identifying the respondent’s age, for the most part they are not extracting
Medicare specific data. More than one-third of all HMOS (39 percent) do not know the
satisfaction rate of their Medicare members for their last general survey, and most (65
percent) do not know the Medicare response rate. Nevertheless, whether or not they


                                             5
survey Medicare enrollees, more than half of the HMOS (58 percent) believe it is easier to
survey Medicare members than it is to survey non-Medicare members, primarily because
the former are more responsive, have more time, and are easier to reach.

The Medicare data which is available shows that Medicare HMO members have high
satisfaction rates. All of the HMOS with Medicare data report overall satisfaction rates of
75 percent or higher for their Medicare members. Similarly, virtually all (99 percent)
report the same 75 percent or higher satisfaction rate for all members.

HMO CUSTOMER SATISFACTION SURVEY INSTRUMENTS AND
PROCEDURES LACK UNIFORMITY

The lack of uniformity in HMO survey instruments and procedures renders comparisons
between HMOS difficult, if not impossible, when assessing Medicare beneficiaries’
satisfaction with their plans.

Satisfaction Survey Instruments

The survey instruments used by HMOS vary widely in their format and content. No two
risk and cost HMOS use the same instrument. Of our sample survey instruments, none
use an exact duplication of the GHAA satisfaction survey instrument, although almost half
(48 percent) use some exact or similar headings, questions and rating scales from that
survey. The HMO instruments differ significantly in their length, ranging in size from 1
to 45 pages and including from between 9 to 159 different questions.

Rating scales and overall satisfaction questions on survey instruments are also inconsistent
across HMOS. Our review of HMOS’ instruments identified 26 different scales used for
responses, ranging from a simple two-point scale of yes or no, to a ten-point scale
covering a range of satisfaction levels. Fourteen different types of questions are used to
measure overall satisfaction, including questions which ask about satisfaction with medical
care, most recent visit, quality of service, health plan and a particular medical center.
Three-fourths of HMOS, however, use a question about satisfaction with their plan to
measure overall satisfaction.

Sti”sfaction Survey Procedures

Sampling procedures also differ. Fourteen percent of HMOS survey their entire
membership. Of the 86 percent who survey a sample of their membership, sample sizes
vary from 100 to over 5000. The size and type of sample used varies according to the
purpose of each HMO’s survey. While most (51 percent) use a simple random sample,
another 41 percent use a stratified random sample, and eight percent a purposive sample.
Forty-nine percent of the HMOS select their sample from a universe of one particular
subgroup, as defined, for example, by a minimum length of membership, while most of
the remaining sample from the universe of their entire membership.




                                              6

Furthermore, other survey procedures used by HMOS vary. Forty-four percent administer
their customer satisfaction survey by telephone only, 16 percent administer it by telephone
and mail, and 37 percent by mail only. The remaining generally use an in-office self-
administered questionnaire in combination with mail or telephone. Excluding those which
conduct ongoing surveys, sixty-two percent of HMOS stop data collection after ten weeks
and the remaining third continue collecting data for longer than ten weeks.

WHILE IN MANY WAYS BASICALLY SOUND, TECHNICAL WEAKNESSES IN
MANY HMO SURVEYS MAY MASK PROBLEMS AND INFLATE
SATISFACTION WITH MANAGED CARE PLANS

HMO Survey Strengths

Many HMOS appear to be following sound survey principles regarding sampling, efforts
to increase response rates by telephone, and instrumentation. A majority (71 percent)
were seeking conildence intervals of 95 percent or higher in designing their sample size.
Close to half (44 percent) used sample sizes of over 1000 members, which, in
combination with their generally high response rates, should have ensured a good level of
precision in their surveys. Additionally, most HMOS who use telephone surveys make a
strong effort to maximize their response rates. Almost all of these (94 percent) try to
contact members at least three times before considering them to be non-respondents.

Furthermore, our review of HMO survey instruments revealed several positive features.
A great majority of the instruments generally include questions which are specific (92
percent), clearly worded (98 percent) and focused on only one thought at a time (98
percent.) The instruments also cover a broad range of satisfaction dimensions. The most
common include ability to provide prompt service (96 percent), overall satisfaction with
services (87 percent), staff courtesy (84 percent), access to services (82 percent),
physician communication (81 percent), and physician competence (77 percent.) Of the
seventeen possible dimensions of satisfaction we looked for in the HMOS’ instruments, a
majority (71 percent) include at least ten.

HMO Survey Instrument Weaknesses

However, our instrument review also revealed some weaknesses in the survey instruments
which may bias, to some degree, survey results. More than half of the instruments (58
percent) include no questions about problems with or complaints about health plan
services. Of the 42 percent which do include these topics, most ask only one or two
questions. For the most part, the questionnaires ask only if a member has ever had a
problem with or complaint about their care, and how satisfied he or she was with its
resolution. The OIG report referenced earlier on beneficiary perspectives of risk HMOS
included several questions in its beneficiary survey specific to problems with HMO
services. These questions were important in understanding, among other things, reasons
for dissatisfaction and disenrollment with HMOS. Half of the instruments (51 percent) do
not ask respondents for their suggestions for improving the HMO.



                                             7

     Other deficiencies noted in the HMOS’ instruments may compromise their objectivity.
     Forty-six percent use at least one unbalanced rating scale. The most common of these, a
     five-point rating scale of three positive, one neutral and only one negative response
     category, is used by twenty-nine percent of the HMOS. Furthermore, of the quarter
     which use agree or disagree statements, almost all include only positive statements for
     respondents to respond to. While this has the advantage of ensuring greater ease for the
     respondent, it also has the disadvantage of possibly resulting in more positive ratings.
     Other weaknesses noted include few or unclear interviewer instructions on telephone
     survey instruments (24 percent), confusing or unclear questionnaire formats (20 percent),
     and inconsistent rating scales (20 percent) and repetitive questions within an instrument
     (15 percent.)

     We also rated each survey instrument to determine its level of user friendliness. In doing
     this, we looked for several qualities, including clarity of format, simplicity of directions
     and questions, and overall attractiveness. While most surveys (73 percent) were rated
     user friendly, only eleven percent were rated very user friendly and 16 percent were
     deemed not user friendly. A majority (80 percent) of those rated user friendly are mail
     surveys, while most (70 percent) rated not user friendly for either the respondent or the
     interviewer are telephone surveys.

     HMO Survey Procedure Weaknesses

     Most HMOS are also lacking certain survey procedures which, if used, may increase
     survey accuracy. Twenty-nine of 32 sample HMOS which use mail surveys do not try to
     contact members who do not return their original questionnaires; just one-third send non-
     respondents a second copy. Additionally, a large majority (87 percent) have never
     conducted a non-respondent analysis, which would enable them to know if non-
     respondents differed in any way from respondents, thus alerting them to possible bias in
     the survey findings. Finally, less than half of the HMOS (43 percent) have ever
     conducted a bilingual survey. All of these HMC)S have conducted surveys in Spanish, and
     many are based in States with a large Spanish-speaking population. The lack of a
     bilingual survey may be a survey weakness in those geographical areas with large numbers
     of non-English speaking clients; without them, the experiences and satisfaction of these
     clients can not be fully comprehended.

     Indexes of Survey Adequacy

     As described in our methodology and explained in Appendix B, we constructed two
     indexes of survey adequacy - one for instruments and the other for procedures. One-third
     of the HMOS’ instruments (32 percent) scored adequate on our survey instrument index,
     while another 28 percent scored somewhat adequate. Of the remaining instruments, 24
     percent scored somewhat inadequate and 16 percent inadequate.

     The HMOS were also scored on the adequacy of their survey procedures. On this index,
     less than one-half (44 percent) scored adequate, and thirty-one percent scored somewhat



                                                   8



—-
adequate. Another ten percent of the HMOS scored somewhat inadequate, while 15
percent scored inadequate.

HMOS USE THEIR SURVEY RESULTS AS MUCH FOR MARKETING AS FOR
QUALITY IMPROVEMENT

Marketing

A majority of HMOS are using their satisfaction surveys in their marketing plans. Nearly
three-fourths (74 percent) say they use the results of their customer satisfaction surveys to
attract potential new members. Most of this marketing consists of reporting survey data
in speeches or other oral presentations, and in pamphlets or brochures. Seventeen percent
use their survey findings for advertising purposes. The HMOS which use their survey
results for marketing have higher overall satisfaction rates than those which do not market
their survey results; 46 percent of the former report overall satisfaction rates of 75 percent
or more, while 20 percent of the latter report the same overall satisfaction rates.

Quality Improvement

A similar number of HMOS utilize survey results for quality improvement purposes.
Three-fourths (76 percent) report using their customer satisfaction data to develop
improvement or corrective action plans. One-third (34 percent) use the results for
tracking performance and developing strategic goals. Almost all (97 percent) include their
satisfaction surveys in their Medicare quality assurance programs.

Most HMOS also share their survey results with employees and members. A majority
distribute their survey findings to physicians (76 percent) and to plan customers (67
percent.) In fact, more than one-third (36 percent) use these results to determine all or
part of their physician reimbursement. Of those HMOS who conduct satisfaction surveys
of their physicians, a few (16 percent) compare these results to those of their member
satisfaction survey results.

Differences Between HMOS

The HMOS use their survey results somewhat differently depending on the size of their
Medicare enrollment. Almost all of the HMOS with high Medicare enrollment (92
percent) use their survey data for quality improvement purposes, compared to 75 percent
of HMOS with medium and low Medicare enrollments. Marketing of survey results is
conducted by 58 percent of high enrollment HMOS, in contrast to 75 percent of medium
and low enrollment HMOS. A comparison of the instruments used by high Medicare
enrollment HMOS with those used by medium and low Medicare enrollment HMOS
reveals some important differences in this regard. For example, more than half of the
former (69 percent) have questions which ask members about problems or complaints with
their health plans, as compared to just forty percent of the latter, Also, HMOS with a
large number of Medicare enrollees are more likely to ask for suggestions for
improvement on their questionnaires than are HMOS with fewer Medicare enrollees.


                                              9
We believe the usefulness of customer satisfaction surveys as currently conducted by
HMOS is substantially reduced by their lack of uniformity, limited focus on Medicare
beneficiaries and technical weaknesses. Therefore, if HCFA seeks data on the satisfaction
of Medicare beneficiaries with managed care, we believe it can not rely upon industry
surveys as they are now conducted. The HCFA may want to consider alternative
approaches to measuring Medicare client satisfaction with managed care, such as
conducting its own surveys or requiring HMOS to periodically survey their Medicare
members with a standardized instrument and comparable procedures.

The Office of Inspector General is planning further work surveying Medicare beneficiaries
about their experiences with HMOS. We will once again conduct a survey of Medicare
HMO members similar to one already completed. We are also working on a technical
assistance report which will provide HCFA with a more detailed discussion of our
methodology for conducting beneficiary surveys and will identify useful survey techniques
and methods based on our prior experience.

COMMENTS

We received favorable comments from HCFA on the draft report, expressing their
appreciation for the timeliness and significance of our study. In particular, HCFA states
that this report will be a major factor in influencing its decision to develop its own
beneficiary satisfaction survey capability. The actual comments received are included in
Appendix C.




                                            10

                            APPENDIX                   A

                            STATISTICAL PROCEDURES

z.     SAMPLE SELECTION

Our original universe of HMO Medicare contracts consisted of 193 risk and cost contracts
which had been awarded as of February 1, 1995. However, we eliminated eight of these
contracts which had no Medicare enrollees at the time our sample was drawn. This left us
with a universe of 185 risk and cost contracts.

We stratified these 185 contracts into three groups - large, medium, and small - based on
the number of Medicare enrollees in each HMO contract. Just 13 large HMO contracts
accounted for 51 percent of all Medicare managed care enrollment. We sampled these 13
at a rate of 100 percent. We sampled the medium stratum HMOS at a rate of 54 percent
and the low stratum HMOS at a rate of 28 percent.

The sample size of 95 was based on the assumption of a 75 percent response rate. The 95
were stratified as follows:

STRATA        # OF MEDICARE ENROLLEES                    UNIVERSE             SAMPLE

1 (large)            > 42500                                13                   13
2 (medium)           1000-42500                            130                   70
3 (low)              <1000                                 42                    12

TOTAL                                                      185                   95




                                            1

II.    CONFIDENCE INTERVWS FOR 15 KEY QUESTIONS

We calculated conildence intervals for fifteen key questions. The response estimate and
95% confidence interval is given for each of the following:

From the mail cwestionnaire

1.	    Have you ever conducted a customer satisfaction survey of any kind?
       “Yes” response estimate:   99%
       Lower interval:            97%
       Upper interval:           100%

2.	    Have you ever conducted a customer satisfaction survey of your Medicare
       enrollees only?
       “No” response estimate:    55%
       Lower interval:            44%
       Upper interval:            66%

3.	    How many times did you try to contact members who did not return the mail
       questionnaire before finally considering them to be non-respondents?
       “No contact” estimate:        65%
       Lower interval:               49%
       Upper interval:               80%

4.	   How many times did you try to reach members by telephone before finally
      considering them to be non-respondents?
      3 or more times estimate:   94%
      Lower interval:             89%
      Upper interval:             98%

5.	   Did your survey instrument include any questions which were asked only of
      Medicare enrollees?
      “No” estimate:              97%
      Lower interval:             93%
      Upper interval:           100%

6.	   What conildence level were you seeking?
      95% or higher estimate:    71%
      Lower interval:            57%


                                         A-2

       Upper interval:                85%


7,     For your Medicare enrollees only, what response rate did you achieve in your last

       customer satisfaction survey?

       “Don’t Know” estimate:       65%

       Lower interval:              54%

       Upper interval:              76%


8.     What percentage of your Medicare members only did you fiid to be satisfied

       overall?

       “Don’t Know” estimate:    39%

       Lower interval:           30%

       Upper interval:           49%


9.     Did you use the results of your customer satisfaction survey to develop a quality

       improvement or corrective action plan?

       “Yes” estimate:              76%

       Lower interval:              67%

       Upper interval:              86%


10.    Did you share the results of your customer satisfaction survey with your members?

       “Yes” estimate:              67%

       Lower interval:              57%

       Upper interval:              77%


11.    Did you share the results of   your customer satisfaction survey with the physicians

       who work for your HMO?

       “Yes” estimate:                76%

       Lower interval:                66%

       Upper interval:                87%


12.    Did you use the results of your customer satisfaction survey to market the HMO to

       potential new members?

       “Yes” estimate:              73%

       Lower interval:              65%

       Upper interval:              83%


From the survey instrument review sheet

13.	   Generally, are [instrument] questions worded clearly and focused on one thought?
       “Yes” estimate:              98%
       Lower interval:              96%
       Upper interval:             100%

14.	   Did the instrument use a rating scale of poor, fair, good, very good, and excellent?
       “Yes” estimate:              29%


                                             A-3

       Lower interval:              19%
       Upper interval:              39%

15.	   How many questions, including subquestions, ask about problems with or
       complaints about health plan services?
       “No questions” estimate      58%
       Lower interval:              45%
       Upper interval:              71%
                             APPENDIX                   B

                         INDEXES OF SURVEY ADEQUACY

I.     INDEX OF INSTRUMENT ADEOUACY

This index of instrument adequacy is based on the sum of scores achieved by each HMO
on three separate variables:

              (1) comprehensiveness of satisfaction dimensions
              (2) balance of response categories
              (3) problem-specific questions

Scores on each variable could range from +2 to -2 according to the criteria for each
discussed below.

(1)    Comprehensiveness of S~”sfaction ~“mensions

       The following ten dimensions of satisfaction were selected from a longer list of
       such dimensions which we looked for in the HMOS’ survey instruments: patient
       access to general or specialty care; physician or staff courtesy; cost of care;
       coordination or continuity of care; physician competence; choice of providers;
       communication with physicians or staffi office waiting time; suggestions for
       improving HMOS; and, plans to stay with the plan.

       Based on the number of these dimensions included in each HMO’s survey
       instrument, the following scores were used:

       No. of dimensions            Score
              o-4                     -2
              5                       -1
              6-7                    +1
              8-10                   +2

(2)    Bahznce of Response Categories




                                            A-1

       Balance of response categories refers to whether or not a rating scale includes an
       even number of positive and negative responses. For example, a scale with one
       positive, one neutral, and one negative response - good, fair, poor - is balanced,
       while a scale with two positive, one neutral, and one negative response - very
       good, good, fair, poor - is unbalanced. Scores for this variable were based on two
       items: 1) whether response categories for overall satisfaction questions were
       balanced or not; and 2) whether response categories for all other questions were all
       balanced, almost all balanced, only some balanced, or all unbalanced. Based on
       the extent to which HMOS used balanced categories, the following scores were
       used:

                     OVERALL SATISFACTION RESPONSE CATEGORIES
                           All         Not All    No Overall
                         Balanced      Balanced    Question
ALL OTHER RESPONSE

CATEGORIES

All Balanced
               +2          -1          +2
Almost All Balanced
        +1          -1           -1
Only Some Balanced
          -1         -2           -2
None Balanced
               -2         -2           -2

(3)    Problem-Specific Questions

       Based on the number of questions about potential problems or complaints included
       in the HMOS’ survey instruments, the following scores were used:

       # of Ouestions        Score
              o                -2
              1-4             +1
              5+              +2

After scoring the HMOS on each of the three variables, we added the three scores together
to give a total instrument adequacy score for each HMO. Scores ranged from +6 to -6,
with a midpoint of +1.65. The mean score is 1.1.

The 63 HMO instruments were grouped into the following four levels of adequacy based
on their index scores:

       Level of Adeauacv             #HMOs        A               Score
       Adequate                       20          32%         (+4 to +6)
       Somewhat adequate              13          28%         (+1 to +3)
       Somewhat inadequate            20          24%           ( o to -2)
       Inadequate                     10          32%           (-3 to -6)

II. INDEX OF SURVEY PROCEDURE ADEOUACY



                                           B-2

This index of procedure adequacy is based on the sum of scores achieved by each HMO
on four separate variables:

       (1)    level of confidence sought

       (2)    frequency of follow-up efforts

       (3)    conducting a non-respondent analysis

       (4)    use of balanced criteria for determining overall satisfaction


Scores on each variable could range from +2 to -1 according to the criteria for each
discussed below.

(1)    Level of Conj7dence Sought

       Based on the level of confidence HMOS were seeking when selecting their survey
       samples, the following scores were used:

       Confidence Interval          Score
        90% or higher                +1
        under 90%                     -1
        Does not apply
        (did not use sample)            o

(2)    Frequency of Follow-up Efforts

       The extent to which HMOS employed follow-up procedures with non-respondents
       was scored for each of three survey modes: mail, telephone and in-office. The
       following scores were used:

       A.     Mail:

       # times non-rest)ondents are contacted:             Score
              2 or more times                               +2
              1 time                                        +1
              No contact made                                -1
              Does not apply (no mail survey)                 o

      B.      Telephone:

      # times non-respondents are contacted:               Score
             3 or more times                                +2
             1 or 2 times                                   +1
             No contact made                                 -1
             Does not apply (no phone survey)                 o

      c.      In-office survey:



                                            B-3

       Follow-ut) mocedures                                Score
       Follow-up with refisals                               +2
       No follow-up with refhsals                             -1
       Does not apply (no in-office survey)                    o

None of the HMOS used all three modes. However, those which used both mail and
telephone to administer their survey were given one combined score for follow-up of
frequency efforts. These HMOS could not achieve a score greater than +2; in this way,
they were not given extra credit for using two survey modes. If they achieved a negative
score for one of the two modes, it was subtracted from any positive scores to give a total
score.

(3)    Conducting a Non-respondent Analysis

       Based on whether an HMO conducted a non-respondent analysis, the following
       scores were used:

       Non-respondent analvsis?                    Score
              Yes                                   +1
              No                                     -1

(4)    Use of Balanced Criteria for Determining Overall Satl”sfaction

       On the mail questionnaires, we asked HMOS how they derived an overall
       satisfaction rating for their members. If they determined this rating by taking only
       the positive responses from a scale which itself is balanced, they used balanced
       criteria to derive overall satisfaction. Based on whether an HMO used balanced
       criteria in determining an overall satisfaction rate, the following scores were used:

       Balanced Criteria?                          Score
              Yes                                   +1
              No                                     -1

As with the index of instrument adequacy, we added an HMO’s scores on these four
variables together to give a total procedure adequacy score for each HMO. Scores ranged
from +5 to -5, with a midpoint of 2. The mean score is 1.4.

The 72 HMO questionnaires on survey procedures were grouped into the following four
levels of adequacy based on their index scores:

      Level of Adequacy             #HMos          x               Score
      Adequate                       32            44%         (+5 to +3)
      Somewhat adequate              22            31%         (+2 to +1)
      Somewhat inadequate             7            10%           ( o to -1)
      Inadequate                     11            15%           (-2 to -5)



                                           B-4

                                                                                    The Adt]]tnijtrator
                                                                                    Washington, D.C. -213201


                                                             .




    DATE:

    To:



    FRONI:


    sw13JEc’~:    Ofke Of ~spector Gct\cral Drafi Rcpofl: “Health MaintenaL\ce
                  @:tiations    @MOs) CUs[oIner Satisfaction Surveys,”
                  (OET:-02-94-00350)

    We rw.kved the ~.hove-referenced && r,:po~ Wtich assesse:; how HbIOS are
    COndUCfig Custon:er satisfaction su~eys ;tnd ho~~they are ub~g      the reSuhS Of th~.$e
    S~eYS The s~d~ WrISconducted in coctperation with HCFA7S man:~:cd care o~cmtious
    and has provided Inajor insights jnto the need for ~ i.n&pendent Offi,;e”of Ma.nagecl Care
    bcnefi;itiy survey capabi~~, Ourdetauedcolmentsareattzchcdt

    Think you for the opporh~fi$       to revie~v and co[~nel~t on tltis draft report.

    Attachment




                                   .




.




                                                                                           .
                                       .
                                    —


..         -                                                  —




     ..”       ­




                   ~&Mhumlkk                                  ,.

                   “TIIe OIG study has provided major insight:; into the need for ml “independent oK~c~ of
                    Managed Care lxn :fici~    sumey capabifil~ ~d on the we of issuesl:;wey questions
                    our pro~am should include.

                    The study is nletilodolo5cal\y      sound and the . sarn~le sizelrespot~se  rate large by,
                                                                                         , tnd suppofled    enou@   to
                                                                                                               tie study
                    assure statistical si;piflctice.    The conclu;tons are based on
                    data. Find\ngs of pdcdu          iniierest to us include:

                             1;	 Wile most HMOS conduct member satisfaction SWV% most@                          ‘t’c’ude
                                Mcdicml: members in the surve)s.
                                                    ,’




                             2. Hh10 survey instnwlents lack Utifonfity of approach and dl:si~~.

                              3, Tecb~id wea.hess’:s give ~ o~ef.~ated             SCnSC   of   mernbec satisfaction and
                                 may ma!;k PrOb@sI       ~

                              4. Survey c.ata are used as much fcr marketing pUJ_POS~S
                                                                                    aS for q~laliy
                                 imrmove:ment
                                    .           purpo:;es.

                       Ttti~ study will be a major factor in influellckg  our decision to clevelo? an “mdependel~t
                                                                      WC would   like to express ow appreciation to
                       beneficiary satisfx:tiou sines capabui~.
                       the OIG for ad&e\ sing our operational nctds in such a timely mumer. \Ye hop~ fi~
                        futu.Tt will intl~~dc stilar joint inte~agenty cooperation.




                                                         ..
